INDEX TO APPENDIX
APPENDIX A
July 30, 2021 4th Cir Appellate Court Dismissal Order
without opinion on Petition for Rehearing/Rehearing en banc

la

March 5, 2021 Unpublished PER CURIAM OPINION,
4th Circuit Appellate court affirming the E.D. Va dismissal order

2a

February 10, 2020 Unpublished OPINION and DISMISSAL ORDER
of the E. D. Va. court dismissing the complaint
where the issue related to the fourth element starts @ app 7.............

5a
18a

Petitioner’s Informal Brief

Page 15 of 15

FILED: July 30, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1173
(4:19-cv-OOO 18-RAJ-LRL)

LAWRENCE E. MATTISON
Plaintiff - Appellant
v.
DENIS R. MCDONOUGH, Secretary Department of Veterans Affairs; U.S.
DEPARTMENT OF VETERANS AFFAIRS
Defendants - Appellees

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wilkinson, Judge Wynn, and
\

Judge Richardson.
For the Court
Is/ Patricia S. Connor, Clerk

l«

Case 4:19-cv-00018-RAJ-LRL Document 23 Filed 03/05/21 Page 1 of 2 PagelD# 235

3. A.
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1173

LAWRENCE E. MATTISON,
Plaintiff - Appellant,
v.

DENIS R. MCDONOUGH, Secretary Department of Veterans Affairs; U.S.
DEPARTMENT OF VETERANS AFFAIRS,
Defendants - Appellees.

Appeal from the United States District Court for the Eastern District of Virginia, at
Newport News. Raymond A. Jackson, District Judge. (4:19-cv-00018-RAJ-LRL)

Submitted: February 26, 2021

Decided: March 5, 2021

Before WILKINSON, WYNN, and RICHARDSON, Circuit Judges.

Affirmed by unpublished per curiam opinion.
Lawrence Eliot Mattison, Appellant Pro Se. Sean Douglas Jansen, Assistant United States
Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Raleigh, North Carolina,
for Appellees.
Unpublished opinions are not binding precedent in this circuit.

Case 4:19-cv-00018-RAJ-LRL Document 23 Filed 03/05/21 Page 2 of 2 PagelD# 236

3 A.
PER CURIAM:
Lawrence Eliot Mattison appeals the district court’s order granting Defendants’
motion to dismiss and dismissing Mattison’s employment discrimination action, brought
under Title VII of the Civil Rights Act of 1964, as amended, 42 U.S.C. §§ 2000e to 2000e17, and 42 U.S.C. § 1981, for failure to state a claim. We have reviewed the record and
find no reversible error. Accordingly, we affirm the district court’s order and judgment.
Mattison v. Wilkie, No. 4:19-cv-00018-RAI-LRL (E.D. Va. Feb. 10, 2020). We dispense
with oral argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.
AFFIRMED

34
2

lutai raytjs».\*t ui

FILED: March 5, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1173
(4:19-cv-00018-RAJ-LRL)

LAWRENCE E. MATTISON
Plaintiff - Appellant
v.

DENIS R. MCDONOUGH, Secretary Department of Veterans Affairs; U.S.
DEPARTMENT OF VETERANS AFFAIRS
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 1 of 13 PagelD# 215

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF VIRGINIA
Newport News Division

FILED
FEB 1 0 2020
CLERK, U.S. DISTRICT COURT
NORFOLK, VA

LAWRENCE E. MATTISON,
Plaintiff,

ACTION NO. 4:I9cvl8

v.
ROBERT WILKIE,
Secretary of the Department
of Veterans Affairs, et al
Defendants.

DISMISSAL ORDER
Plaintiff Lawrence E. Mattison (“Plaintiff’), appealing pro se, filed this action against
Defendants Robert Wilkie, the Secretary of the Department of Veterans Affairs (“Secretary
Wilkie”), and the U.S. Department of Veterans Affairs (“VA”) (collectively “Defendants”).
Compl., ECF No. 3.

This matter is before the Court on the following motions: (i) Plaintiffs

“Motion for Temporary Prohibitive Injunction” (“Motion for Injunction”); (ii) Defendants'
Motion to Dismiss; and (iii) Defendants' “Motion for Leave to File Response Out of Time”
(“Motion for Extension”).
ECF No. 12.

Mot. Inj., ECF No. 7; Mot. Dismiss, ECF No. 8; Mot. Extension,

The Court concludes that oral argument is unnecessary because the facts and legal

arguments are adequately presented in the parties’ briefs.

For the reasons set forth below.

Defendants’ Motion to Dismiss, ECF No. 8, is GRANTED. Plaintiffs Motion for Injunction.
ECF No. 7, and Defendants’ Motion lor Extension, ECF No. 12, are DISMISSED as moot.
I. Factual and Procedural Background
In his Complaint, Plaintiff alleges that he is an African American male, w'ho previously
worked in the Housekeeping Department at the Plampton VA Medical Center. Compl. at 3, ECF

i___

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 2 of 13 PagelD# 216

w

No. 3. Plaintiff alleges that in June 2014, he “befriended a white female [n]urse” at work, who
Plaintiff refers to as “A.P.” Id. Plaintiff alleges that he and A.P. “maintained a work related and
consensual at-work friendship that included: hospital duties, socializing, gift giving and texting by
personal phone for work and personal conversation.” Id.
In February 2015, A.P. “submitted a written statement which contained allegations against
Plaintiff,” that triggered an investigation by a “[fjederal police officer/employee.” Id. at 4.
Plaintiff was criminally charged under Virginia law for stalking, making phone calls with the
intent to annoy, and violating a protective order.1 On December 15,2015, Plaintiff appeared for
trial in the Hampton General District Court, and was found guilty of the charges of stalking and
making phone calls with the intent to annoy. Plaintiff was sentenced to twelve months in jail,
with four months suspended.2
On December 28, 2015, the VA issued Plaintiff a notice of his proposed removal from
employment (“Notice of Proposed Removal”), which stated:
It is proposed to remove you from employment with VA based on
the following reasons:
i

Although Plaintiff did not attach copies of his state court criminal records to his
Complaint in this action, they are matters of public record of which this Court may properly take
judicial notice. See Philips v. Pitt Cty. Mem. Hosp., 572 F.3d 176, 180 (4th Cir. 2009).
Plaintiffs case history before the Virginia state courts can be found at http://www.courts.state.
va.us/caseinfo/home.html.
2 Plaintiff appealed his convictions to the Hampton Circuit Court. Following a trial in the
Hampton Circuit Court on May 25,2016, Plaintiff was found guilty of stalking and making phone
calls with the intent to annoy, and sentenced to twelve months in jail, with credit for time served.
See Sentencing Order, Mattison v. Willis, No. 4:17cvl34 (E.D. Va. May 18, 2018), ECF
No. 63-12. Plaintiff appealed his Hampton Circuit Court convictions to the Virginia Court of
Appeals; however, his appeal was denied. See Commonwealth v. Mattison, No. 0986-16-1 (Va.
Ct. App. Apr. 17,2017) (initial denial); see also Commonwealth v. Mattison, No. 0986-16-1 (Va.
Ct. App. June 29, 2017) (panel denial). Plaintiff then filed a Petition for Appeal in the Virginia
Supreme Court, but his petition was refused. See Commonwealth v. Mattison, No. 17-1012 (Va.
Dec. 12, 2017). Plaintiffs subsequent Petition for Rehearing was likewise refused by the
Virginia Supreme Court. See Commonwealth v. Mattison, No. 17-1012 (Va. Feb. 28,2018).
2

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 3 of 13 PagelD# 217

a. CHARGE I: Conduct Unbecoming a Federal Employee
1. SPECIFICATION 1: Beginning in or about January
2014, you followed [A.P.], a Hampton VAMC employee, around
the halls of the Hampton VA Medical Center. You acquired
[A.P.’s] personal cellular telephone number and frequently called
her and sent text messages to her. In February 2015, [A.P.] asked
you to cease all contact. You continued to repeatedly call and sent
text messages to [A.P.], despite her request that you stop contacting
her.
2. SPECIFICATION 2: On or about March 9, 2015,
you accessed [A.P.’s] cellular phone without her permission and
sent a photo in [A.P.’s] cellular phone to your e-mail address.
b. CHARGE II: Failure to Follow Supervisory Instructions
1. SPECIFICATION 1: At approximately 3:30 p.m., on
March 16, 2015, Anthony Curling, EMS Program Manager, spoke
to you by telephone and instructed you to remain away from
Hampton VAMC property. Despite Mr. Curling’s instructions,
you were observed on Hampton VAMC property at approximately
6:30 p.m. on March 16,2015.
Notice Proposed Removal, attached as Exs. 3-1 through 3-3 to Compl., ECF Nos. 3-9 through
3-11. The Notice of Proposed Removal included a section that discussed “aggravating factors” to
be considered in determining whether to terminate Plaintiffs employment. This section stated:
“On August 5, 2015, you were placed on Indefinite Suspension after being arrested and charged
with Stalking and Violation of a Protective Order. These factors will be taken into account by the
Deciding Official in determining proper disciplinary action, if one or more of the above reasons
are sustained.” Id.
Plaintiff alleges that his employment was “‘officially’ terminated” on February 10, 2016.
Compl. at 5. Plaintiff further alleges that he was “subsequently replaced” by a “white male,” who
covered Plaintiffs evening shifts, as well as a “black female,” who covered Plaintiffs midnight
shifts. Id.

3

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 4 of 13 PagelD# 218

In Count I of his Complaint, Plaintiff claims that Defendants discriminated against him on
the basis of his race and sex in violation of Title VII of the Civil Rights Act of 1964 (“Title VII”)
and42U.S.C.§ 1981. Id. at 5-10,12-13. To support this claim, Plaintiff alleges that although he
“was performing his duties at a level that satisfied and/or exceeded the Agency’s expectations,” he
was suspended without pay, and later terminated, because of his “consensual friendship with a
white female,” Id. at 12. Plaintiff claims that Defendants chose to “retain” the “white female,”
even though her “written complaint was untruthful.” Id. Plaintiff further claims that when
Defendants experienced “employee-to-employee issues” involving “employees whose race and/or
sex [was] the same,” Defendants “took minimal action.” Id.
In Count II of his Complaint, Plaintiff claims that Defendants created a hostile work
environment in violation of Title VII and § 1981. Id. at 10-11, 13-14. To support this claim,
Plaintiff alleges that Defendants “sexualiz[ed]/criminaliz[ed]” the “friendship between a [b]lack
male and a white female” (i.e., Plaintiff and A.P.), and wrongfully “induce[ed] State court
processes” against Plaintiff.3 Id. at 13.
On May 13,2019, Plaintiff filed a Motion for Injunction. Mot. Injunction, ECFNo. 7. In
his motion, Plaintiff states that his home, located at 466 Fort Worth Street, Hampton, Virginia
23699, was purchased by the VA at a foreclosure sale in 2018. Id. at 1. Plaintiff believes that
3 Plaintiff filed two other lawsuits in this Court regarding his state criminal proceedings
and subsequent employment termination. In Action No. 4:17cvl34, Plaintiff alleged that the
Commonwealth of Virginia lacked jurisdiction to prosecute Plaintiff for criminal activity that
allegedly occurred on federal property. See Dismissal Order at 6-7, Mattison v. Willis,
No. 4:17cvl34 (E.D. Va. Dec. 6, 2018), ECF No. 102. Plaintiff asserted a number of
constitutional and statutory claims against those involved in his criminal proceedings and
termination process. See id. at 7. Action No. 4:17cvl34 was dismissed on December 6, 2018,
and subsequently affirmed on appeal. Id. at 1-28; Mattison v. Willis, 774 F. App’x 800 (4th Cir.
2019). Plaintiff also filed Action No. 4:18cv61, in which he asserts a number of tort claims
against the United States under the Federal Tort Claims Act. Am. Compl., Mattison v. United
States, No. 4:18cv61 (E.D. Va. Dec. 18, 2018), ECF No. 20. Action No. 4:18cv61 remains
pending.
4

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 5 of 13 PagelD# 219

“there is a very strong probability” that he “will prevail on the merits” of this action, as well as
another federal lawsuit. Id. at 2. Plaintiff asks the Court to issue an injunction that would
prohibit the filing of any state court eviction proceeding against him prior to the resolution of
Plaintiffs federal lawsuits. Id. at 3.
On May 31,2019, Defendants filed a Motion for Extension, in which they seek permission
to file an untimely Opposition to Plaintiffs Motion for Injunction. Mot. Extension, ECF No. 12;
Mem. Supp. Mot. Extension, ECF No. 13. Defendants attached a proposed Opposition to their
motion, to which Plaintiff replied. Opp’n, ECF No. 13-1; Reply, ECF No. 15.
On May 20, 2019, Defendants filed a Motion to Dismiss, and provided Plaintiff with a
proper Roseboro Notice pursuant to Rule 7(K) of the Local Civil Rules of the United States
District Court for the Eastern District of Virginia. Mot. Dismiss, ECF No. 8; Roseboro Notice,
ECF No. 10; E.D. Va. Loc. Civ. R. 7(K). On May 28, 2019, Plaintiff filed a response in
opposition to Defendants’ Motion to Dismiss (“Opposition”). Opp’n, ECF No. 11. Defendants
timely filed a Reply. Reply, ECF No. 14. All pending motions are ripe for decision.
II. Defendants* Motion to Dismiss
A. Standards of Review Under Rule 12(Wn and Rule 12(b)(6)
Defendants seek dismissal of this action pursuant to Rules 12(b)(1) and 12(b)(6) of the
Federal Rules of Civil Procedure. Dismissal is warranted under Rule 12(b)(1) for any claims
over which the Court lacks subject matter jurisdiction. Fed. R. Civ. P. 12(b)(1). Plaintiff
bears the burden of proving that subject matter jurisdiction exists by a preponderance of the
evidence.

United States ex rel Vuyyuru v. Jadhav, 555 F.3d 337, 347-48 (4th Cir. 2009). A

Rule 12(b)(1) motion to dismiss should be granted “only if the material jurisdictional facts are
not in dispute and the moving party is entitled to prevail as a matter of law.” Evans v. B.F.

5

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 6 of 13 PagelD# 220

10*
Perkins Co., 166 F.3d 642, 647 (4th Cir. 1999) (quoting Richmond, Fredericksburg & Potomac
R.R. Co. v. United States, 945 F.2d 765, 768 (4th Cir. 1991)). In determining whether subject
matter jurisdiction exists, the district court “may consider evidence outside the pleadings without
converting the proceeding to one for summary judgment.”

Velasco v. Gov 7 of Indonesia, 370

F.3d 392,398 (4th Cir. 2004); Johnson v. Portfolio Recovery Assocs., LLC, 682 F. Supp. 2d 560,
566-67 (E.D. Va. 2009).
A motion to dismiss under Rule 12(b)(6) should be granted if a complaint fails to “allege
facts to state a claim to relief that is plausible on its face.” BellAtl. Corp. v. Twombly, 550 U.S.
544, 570 (2007). A Rule 12(b)(6) motion “tests the sufficiency of a complaint and ‘does not
resolve contests surrounding the facts, the merits of a claim, or the applicability of defenses.’”
Johnson, 682 F. Supp. 2d at 567 (quoting Republican Party ofN.C. v. Martin, 980 F.2d 943, 952
(4th Cir. 1992)). As such, the Court must accept all factual allegations contained in Plaintiffs
Complaint as true, and draw all reasonable inferences in favor of Plaintiff. Id.
In ruling on a Rule 12(b)(6) motion, the Court may rely upon the allegations of the
Complaint and documents attached as exhibits or incorporated by reference.

Simons v.

Montgomery Cty. Police Officers, 762 F.2d 30, 31 (4th Cir. 1985). In addition, the Court “may
properly take judicial notice of matters of public record.” Philips v. Pitt Cty. Mem. Hosp., 572
F.3dl76,180 (4th Cir. 2009).
In employment discrimination cases, the United States Supreme Court has held that a
complaint need not “contain specific facts establishing a primafacie case of discrimination under
the framework set forth ... in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93 S. Ct. 1817,
36 L. Ed. 2d 668 (1973).” Swierkiewicz v. Sorema, N.A., 534 U.S. 506, 508 (2002). The Court
explained that the “primafacie case under McDonnell Douglas... is an evidentiary standard, not

6

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 7 of 13 PagelD# 221

a pleading requirement.” Id. at 510. The United States Court of Appeals for the Fourth Circuit
“has not, however, interpreted Swierkiewicz as removing the burden of a plaintiff to allege facts
sufficient to state all the elements of [his or] her claim.” Bass v. E.l Dupont de Nemours & Co.,
324 F.3d 761,765 (4th Cir. 2003). Thus, although a complaint need not contain “detailed factual
allegations,” a complaint containing mere “labels and conclusions” or a “formulaic recitation of
the elements of a cause of action will not do.” Twombly, 550 U.S. at 555.
Further, when analyzing the pleadings of a pro se plaintiff, courts are required to construe
such pleadings liberally, especially in a civil rights case. See Brown v. N.C. Dep V of Corr.y 612
F.3d 720, 722 (4th Cir. 2010); Conyers v. Va. Hous. Dev. Auth., No. 3:12cv458, 2012 U.S. Dist.
LEXIS 134908, at *7-8 (E.D. Va. Sept. 19,2012).
B. Discussion
In their Motion to Dismiss, Defendants argue, among other things, that Plaintiffs
Complaint fails to state plausible discrimination or hostile work environment claims under Title
VII or § 1981 upon which relief may be granted. The Court addresses these arguments below.
i. Race and Sex Discrimination
The Title VII provision that protects employees of the federal government from
discrimination states, in relevant part, that “[a]ll personnel actions affecting employees or
applicants for employment... shall be made free from any discrimination based on race, color,
religion, sex, or national origin.” 42 U.S.C. § 2000e-l 6(a). To state a primafacie claim of race
or sex discrimination under Title VII or § 1981, Plaintiff must show (i) membership in a protected
class; (ii) satisfactory job performance; (iii) an adverse employment action; and (iv) more
favorable treatment of someone outside the protected class with comparable qualifications.
Coleman v. Md. Court ofAppeals, 626 F.3d 187,190 (4th Cir. 2010); Bryant v. BellAtl. Md, Inc.,

7

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 8 of 13 PagelD# 222

\lth
288 F.3d 124,133 n.7 (4th Cir. 2002) (noting that “[t]he required elements of aprimafacie case of
employment discrimination are the same under Title VII and Section 1981”).
With respect to the fourth element, the “comparator-employee” who allegedly received
more favorable treatment need not be identical to Plaintiff; however, “[t]here should be similarity
in all relevant aspects such as conduct, performance, and qualifications.” Rayyan v. Va. Dep 7 of
Transp., No. I:15cv01681, 2017 U.S. Dist. LEXIS 5061, at *9 (E.D. Va. Jan. 12, 2017) (citing
Haywood v. Locke, 387 F. App’x 355,359 (4th Cir. 2010)). As the Fourth Circuit has explained:
“The similarity between comparators and the seriousness of their
respective offenses must be clearly established in order to be
meaningful.” That showing typically includes evidence that the
employees “dealt with the same supervisor,... [were] subject to the
same standards[,] and... engaged in the same conduct without such
differentiating or mitigating circumstances that would distinguish
their conduct.” “The most important variables in the disciplinary
context, and the most likely sources of different but
nondiscriminatory treatment, are the nature of the offenses
committed and the nature of the punishments imposed.”
Hurst v. D.C., 681 F. App’x 186, 191 (4th Cir. 2017) (internal citations omitted) (alterations in
original).
Defendants argue that Plaintiffs Complaint fails to plausibly allege that similarly situated
individuals outside of Plaintiffs protected classes were treated more favorably, or that Plaintiff
was satisfying the VA’s legitimate job-related expectations at the time of his termination. Mem.
Supp. Mot. Dismiss at 15-16, ECF No. 9. Specifically, Defendants argue:
In attempting to show that Plaintiff was treated differently based on
his race and sex, Plaintiff identifies eight “employee-to-employee”
incidents between black males, black males and black females[,]
and white males and black males in which none of the individuals
were terminated. [Compl. at U 27.] Plaintiffs Complaint does
not, however, provide any examples of individuals who, like
Plaintiff, were convicted of stalking and sentenced to 12 months in
jail for their on-the-job conduct. On the contrary, only one of the
eight examples Plaintiff provided even involved alleged criminal
conduct, and in that one example, the charge of assault and battery
8

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 9 of 13 PagelD# 223

I3A
was dropped. Because none of the putative comparators identified
by Plaintiff engaged in conduct even remotely similar to Plaintiffs
conduct of stalking a coworker, pursuant to Haywood, such putative
comparators cannot support an inference that Plaintiff was treated
differently based on his race or sex, and thus, Plaintiffs wrongful
termination claim must be dismissed.
Id. at 15.
Defendants also argue that although Plaintiff claims that he was satisfactorily performing
his duties at the time of his termination, Plaintiffs Complaint “does not meaningfully address the
fact that Plaintiff was also stalking a coworker while on the job.” Id. Defendants argue that “the
VA has a legitimate interest in not having its employees stalked by their coworkers,” and that
based on Plaintiffs criminal convictions, Plaintiff was not meeting that legitimate expectation.
Id. at 16.
Plaintiff believes that his state court criminal convictions were unlawful. Opp’n at 1-5,
ECF No. 11.

Specifically, Plaintiff believes that the Commonwealth of Virginia lacked

jurisdiction to prosecute Plaintiffs crimes because they allegedly occurred on federal property.
Id. Plaintiff argues that Defendants cannot rely on Plaintiffs state court convictions as a basis for
his termination, and that the true reasons for Defendants’ decision to terminate Plaintiffs
employment were discriminatory. Id. at 12-16.
Additionally, in response to Defendants’ argument regarding the lack of adequate
comparators, Plaintiff appears to acknowledge that, unlike Plaintiff, the other individuals who
were not terminated despite their involvement in “employee-to-employee” incidents were never
convicted of any crimes. Id. at 13. However, Plaintiff appears to argue that these individuals
should nevertheless be considered comparators because they “could have been charged” with
various crimes. Id. In response to Defendants’ argument regarding satisfactory job

\$(\

9

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 10 of 13 Page! D# 224

performance, Plaintiff maintains that he was “an exceptional to excellent employee at the time in
question.” Id. at 15.
As summarized above, to state a claim for race or sex discrimination under Title VII or
§ 1981, Plaintiff must show, among other things, more favorable treatment of a comparator outside
of Plaintiff s protected classes, and satisfactory job performance. See Coleman, 626 F.3d at 190;
Bryant, 288 F.3d at 133 n.7. Here, Plaintiff, who was convicted of stalking and making phone
calls to a co-worker with the intent to annoy, has not identified other individuals outside of his
protected class who were convicted of similar criminal offenses and were treated more favorably.
Additionally, despite Plaintiffs characterization of his job performance, the Court finds that
Plaintiffs criminal convictions prevent Plaintiff from plausibly alleging that he was satisfying
Defendants’ legitimate job expectations at the time of his termination. As such, the Court finds
that Plaintiffs Complaint fails to allege facts sufficient to establish plausible claims of race or sex
discrimination under Title VII or § 1981. Accordingly, Defendants’ Motion to Dismiss is
GRANTED as to Plaintiffs race and sex discrimination claims.
ii. Hostile Work Environment
To state a hostile work environment claim under Title VII or § 1981, Plaintiff must allege
that (i) he experienced unwelcome harassment; (ii) the harassment was based on a protected
characteristic; (iii) the harassment was sufficiently severe or pervasive to alter the conditions of
Plaintiffs employment and create an abusive atmosphere; and (iv) there is some basis for
imposing liability on Defendants. See Harris v. Forklift Sys., Inc., 510 U.S. 17,21 (1993); Bass
v. E.I. DuPont de Nemours & Co., 324 F.3d 761, 765 (4th Cir. 2003); Spriggs v. Diamond Auto
Glass, 242 F.3d 179, 184 (4th Cir. 2001) (noting that the elements of a hostile work environment
claim “are the same under either § 1981 or Title VII”). In determining whether alleged actions

10

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 11 of 13 PagelD# 225

are “sufficiently severe or pervasive,” courts will conduct a “subjective and objective
assessment” of the claimed harassment. Jones v. HCA, 16 F. Supp. 3d 622, 630 (E.D. Va.
2014). The harassment must be “perceived by the victim as hostile or abusive, and that
perception must be reasonable.” Id.

When analyzing whether the alleged harassment is

objectively severe or pervasive, “courts consider ‘the frequency of the discriminatory conduct;
its severity; whether it is physically threatening or humiliating, or a mere offensive utterance;
and whether it unreasonably interferes with an employee’s work performance.’” Id. (citing
Harris, 510 U.S. at 23); see also Jones v. Tyson Foods, Inc., 378 F. Supp. 2d 705, 712-13 (E.D.
Va. 2004). As the Fourth Circuit has explained:
While a plaintiff is not charged with pleading facts sufficient to
prove [his or] her case, as an evidentiary matter, in [his or] her
complaint, a plaintiff is required to allege facts that support a claim
for relief. The words “hostile work environment” are not
talismanic, for they are but a legal conclusion; it is the alleged facts
supporting those words, construed liberally, which are the proper
focus at the motion to dismiss stage.
Bass, 324 F.3d at 765 (emphasis in original).
In their Motion to Dismiss, Defendants argue that “Plaintiff cannot satisfy any of the first
three elements” necessary to state a hostile work environment claim under Title VII or § 1981.
Mem. Supp. Mot. Dismiss at 16, ECF No. 9. Specifically, Defendants argue:
As to the first element, the allegedly “unwelcome conduct” that
Plaintiff complains about is that the VA allegedly has a practice of
referring matters between colleagues to state criminal court if the
events so warrant. Compl. at % 49. While Plaintiff may have
wished that the VA did not refer Plaintiffs stalking to a state court,
which in turn resulted in a significant jail term, nothing about
referring potential criminal matters to state court constitutes
“unwelcome conduct” within the meaning of Title VII. As to the
second element, Plaintiff alleges no facts that would allow this
Court to infer that the VA referred Plaintiffs actions to a state court
based on his race or his sex as opposed to the VA’s desire to prevent
Plaintiff from stalking his victim. As to the third element, referring
potential criminal matters to state courts does not create an “abusive

I5a>'

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 12 of 13 PagelD# 226

work environment.” On the contrary, by referring Plaintiffs
actions to a state court, the VA was able to create a safer work
environment for its employees, including Plaintiffs victim, by
allowing VA employees to work with less fear of being stalked by
their coworkers.
Id.
In his Opposition, Plaintiff reiterates the allegations of his Complaint, and claims that
Defendants “sexualiz[ed]/criminaliz[ed]” Plaintiffs “friendship” with A.P., and wrongfully used
the “[s]tate criminal process” against Plaintiff. Opp’n at 16, ECF No. 11.
As summarized above, A.P. submitted an internal complaint regarding Plaintiff in
February 2015. Compl. at 4, ECF No. 3. The internal complaint triggered an investigation, and
resulted in criminal charges against Plaintiff. Id. After Plaintiff was found guilty of stalking and
making phone calls with the intent to annoy, the VA issued a Notice of Proposed Removal, and
subsequently terminated Plaintiffs employment. Id. at 5; Notice Proposed Removal, ECF
Nos. 3-9 through 3-11.
Although Plaintiff claims that Defendants’ actions created a hostile work environment, the
Court finds that the factual allegations set forth in Plaintiffs Complaint, viewed in the light most
favorable to Plaintiff, do not establish the required elements of a hostile work environment claim.
Specifically, the Court finds that the factual allegations do not establish unwelcome harassment,
based on Plaintiffs sex or race, that was sufficiently severe or pervasive to alter the conditions of
Plaintiffs employment and create an abusive atmosphere. Accordingly, Defendants* Motion to
Dismiss is GRANTED as to Plaintiffs hostile work environment claims under Title VII and
§ 1981/

4 Because the Court finds that dismissal of this action is warranted for the reasons stated
herein, the Court does not address the alternative arguments for dismissal raised in Defendants’
Motion to Dismiss.
12

Case 4:19-cv-00018-RAJ-LRL Document 18 Filed 02/10/20 Page 13 of 13 PagelD# 227

III. Plaintiffs Motion for Injunction and Defendants* Motion for Extension
As summarized above, Plaintiff filed a Motion for Injunction, in which he asks the Court to
issue an injunction that would prohibit the filing of any state court eviction proceeding against him
prior to the resolution of Plaintiffs federal lawsuits.

Mot. Injunction at 3, ECF No. 7.

Defendants filed a Motion for Extension, in which they seek permission to file an untimely
Opposition to Plaintiffs Motion for Injunction. Mot. Extension at 1, ECF No. 12.
Because the Court hereby grants Defendants’ Motion to Dismiss, Plaintiffs Motion for
Injunction, ECF No. 7, and Defendants’ Motion for Extension, ECF No. 12, are DISMISSED as
moot.
IV. Conclusion
For the reasons set forth above, Defendants’ Motion to Dismiss, ECF No. 8, is
GRANTED.

Plaintiffs Motion for Injunction, ECF No. 7, and Defendants’ Motion for

Extension, ECF No. 12, are DISMISSED as moot.
Plaintiff may appeal this Dismissal Order by forwarding a written notice of appeal to the
Clerk of the United States District Court, Newport News Division, 2400 West Avenue, Newport
News, Virginia 23607. The written notice must be received by the Clerk within sixty days from
the date of entry of this Dismissal Order.
The Clerk is DIRECTED to send a copy of this Dismissal Order to Plaintiff and counsel
for Defendants.
IT IS SO ORDERED.
Raymond A. Jackson
UNITED STATES DISTRICT JUDGE
Norfolk, Virginia
February jf^

, 2020

uourtH Mppeai;

1 i /o

uuu. H

rneu, u01 iu/z,uzu

ry; i ui id

I8«
CASE No. 20-1173

jmr

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
Richmond Virginia Division
53*

' Lawrence E. Mattison

ro
o
o

=s

c:~ 5
■i

Plaintiff-Appellant

Case No. 20-1173

4th circuit district court No.
4:19-CV-00018-RAJ-LRL

V.

zl:

o

c~
y

-O

oc.-.-

32
INJ
•#

5':$'

V-

IS5

Robert Wilkie,
Secretary Department of
Veterans Affairs
Defendant
PLAINTIFF-APPELLANT’S INFORMAL BRIEF
I.

JURISDICTION

Plaintiff-Appellant appeals the February 10,2020 Dismissal Order of the
United State District Court for the fourth circuit, Newport News Virginia division,
to the United States Court of Appeals for the Fourth Circuit pursuant to 28
U.S.C.S1291. A Petition for Appeal was filed with the District Court February 12,
2020. The Appeal includes A United States Agency/employee as defendant:
Robert Wilkie; Secretary of the Department of Veterans Affairs. The District Court
granted Plaintiff-Appellant in forma Pauperis status and this status is properly at
this Court.

Page 1 of 14

UOUM't Mpp«<di; zu- I I/O

uuu:

h

rii«u: uO! iu/£uz.u

ry. £ ui 10

cis^No. 20-1173
n.

INTRODUCTION
Plaintiff-Appellant (“Plaintiff5) Appeal specifically relates to the

defendant’s lack of a legal, nondiscriminatory reasons for termination. Plaintiff
claimed that race and sex(gender) are the direct and/or motivating factors, and an
unlawful pretext in view of the McDonnel Douglas theory on Race discrimination.
The facts in dispute is whether the record shows statements by Michael Dunfee
(the deciding official) reflect a legal, nondiscriminatory reason for Plaintiff s
termination from federal employment.
1.

Both plaintiff and defendant were clear that a written complaint against

petitioner started an Administrative investigation at Federal Government hospital,
and subsequently a Federal police officer’s sworn Statement to a Virginia
magistrate garnered arrest warrants and conviction, see ECF No. 3(init.
complaint)@ 5-5; ECFNo.9 @ 2-4(def. motion to dism.)
2.

The specific reason a federal Administrative issue went from a Federal

sovereign to a State sovereign is a question of law, to which the response by
defendants ECF No. 9 is hollow,
3.

Plaintiffs sex & race discrimination complaint relates to the reason a State

criminal process was sought but not the legally required federal process afforded
other federal employees at this federal hospital who “were” and others “could have

Page 2 of 14

UOUMH Mjjpecll. £U“ I 1 fO

uuu;

h

meu: u01

iu/^u^u

ry; oui i z>

CASE No. 20-1173
been” charged in a State of Virginia court but the defendant intervened and then
applied the required federal employment process.
4.

This Appeal also relates to the Unknown reason. Michael Dunfee (“the

deciding official”) sustained the allegations as claimed in ECF No. 9 & 18, when a
genuine issue of material fact is at issue: what were the specific elements the
deciding official had knowledge of when sustaining the removal allegations,
(emphasis)
m.

SYNOPSIS OF THE ISSUE
The Eastern District of Virginia Court (“E.D. Va.”) dismissed Plaintiff s

Title VII/ 42 U.S.C. §1981 under Fed. r. Civ. p. 12(b)(6) (seemingly for failure to
State a claim). Plaintiff sole issue was that the defendant took discriminatory action
against plaintiff based on race and or sex (gender). Plaintiff s sole contention is
that the termination was solely based on a white female’s “allegations”, and the
defendant’s termination was in violation of: (1) Title VII civil rights act of 1964 as
amended in 1991,42 U.S.C. §2000 et seq; (2) 42 U.S.C. §1981(a)(b) and that
process was discriminatory by Law, in relation to other employee-to-employee
issues and motivated by race and or sex (gender), see ECF No, 3
The defendant’s response to the initial complaint clearly show race was the
motivating factor and an unlawful pretext, see ECF No. 9 (def. memo in support)

old&

Page 3 of 14

uoumh

Mjjjjtjdi; ^u-1 if o

UUU. H

nieu. uo/ iu/zuzu

ry; h ui id

41 &

CASE No. 20-1173
After the agency response, through counsel, plaintiff then responded that the
defendant’s proffered reason was an unlawful pretext.(emphasis) see ECF No. 11
(Plaintiff memo in support ofRoseboro response).
Therefore, the defendant Never alleged a legal, nondiscriminatory reason
for termination, (emphasis) Nor did the defendant allege an “Administrative
investigation” found evidence to prove the removal allegation as alleged.’ see ECF
No. 18 @3
The E. D. Va. court sustained defendants 12(b)(6) motion alleging that:
(1) Plaintiff did not present evidence to satisfy a direct/indirect (“mixed-motive”)
framework; (2) Plaintiffs “comparators” did not fit the requirement under
McDonnell Douglas Corp. v. Green, 411 U.S. 792,93 S. Ct. 1817,36, L. Ed. 2d
668 (1973) or Haywood v. Locke, 387 F. App’x 355,359(4Ul Cir 2010). ECF No.
18 @8-9.
IV.

ISSUES FOR REVIEW

1.

Issue one
The E D. Va. court overstepped it’s authority by “Assuming”, without
evidence that the Agency deciding official has a legitimate
nondiscriminatory reason for termination.
When the question at issue is whether the “ ‘decision maker’ ” acted with

discriminatory animus, only the “ ‘perception of the decision maker’ ’ is
ct (

relevant’ ” to the question. Hux v. City ofNewport News, 451 F.3d 311,319 (4th

3,1 ft

Page 4 of 14

uoum Mjjjjeai; ziu-1 i i o

uuu; *+

nifcju. vot iu/zuz.u

c

ry. oui i d

o. 20-1173

Cir. 2006) (citation omitted). The district court’s “function” is not “to weigh the
evidence and determine the truth of the matter but to determine whether there is a
genuine issue for trial.” Anderson, 477 U.S. at 249; accord Guessous v. Fairview
Prop. Invs., LLC, 828 F.2d 208, 216 (4th Cir. 2016).
Defendant’s allegation in Def. response @ ECF No. 9 at *4 T[10 claimed
“On February 10,2016, the HVAMC director, Mr. Dunfee, sustained
the “decision of Plaintiffs supervisor” to remove plaintiff from
federal employment based on the “conduct underlying the stalking
conviction ”
Plaintiff contends defendant’s ^[10 above is hollow. There is a genuine issue
of material fact what Dunfee’s perception was. There is nothing in the record to
address this issue. Dunfee, being at the time, a director of a federal government
hospital should have known that [h]e cannot delegate his authority to discern
plaintiffs lawful duties to a State court. Plaintiff clearly demonstrated that race/sex
was a motivating factor even if other “factors” were present under a direct/indirect
(“mixed-motive”) theory to succeed on his race discrimination complaint under
Title VII.
Direct evidence of discrimination is “evidence of conduct or statements that
both reflect directly the alleged discriminatory attitude and that bear directly on the
contested employment decision.” Washington v. Kroger Ltd. P’ship I, No. 3:11-

Page 5 of 14

UOOAV+ MjjpWdl. £X>- I \ l O

UU(J. *+

rneu. voi

iu/zu^u

ry. oui to

CASE Pro. 20-1173
cv-00074, 2012 WL 6026138, at *3 (W.D. Va. Dec. 4,2012) (citing Warch v.
Ohio Cas. Ins. Co., 435 F.3d 510, 520 (4th Cir. 2006)).
Plaintiff initial complaint established: (1) direct and indirect conduct, also
known as the “mixed-motive” framework, as the bases for termination. Under the
“mixed-motive” framework, a plaintiff succeeds if he “demonstrates that race ...
was a motivating factor for any employment practice, even though other factors
also motivated the practice.” Diamond v. Colonial Life & Acc. Ins, Co.t 416 F.3d
310, 317 (4th Cir.2005) (internal quotation marks omitted). The plaintiff may do so
through direct or circumstantial evidence. Id. at 318. This evidence must both
display a “discriminatory attitude” and bear a causal relationship with the adverse
employment action. Warch v. Ohio Cas. Ins. Co., 435
There is No nexus between the State court action verses the removal
allegations, the record is hollow on this fact. The authoring of the removal
allegations is one point related to a racist motivation, Dunfee’s sustaining the
allegations without regard to facts or evidence, aside from the unlawful is another
point related to a racist motivation, see ECF No. 18 (dismissal order @ 3). Until
Dunfee’s perception is known, the E. D. Va. court was in error for “assuming” the
removal allegations have a “relationship” to Dunfee’s perceptions.
There is clearly a racially discriminatory attitude as a motive when a white
female makes allegations that the employer has evidence the allegations are false.
Page 6 of 14

uoi/ttH Mfjpeai; z:u-1 i to

uuu;

h

nittu: uoi iu/z,u^u.

ry. t ui 10

CASE No. 20-1173
see Warch v. Ohio Cas. Ins. Co., 435 F.3d 510, 520 (4th Cir.2006) (a plaintiff may
present direct or circumstantial evidence that display a “discriminatory attitude”
and bear a causal relationship with the adverse employment action.)
2.

Issue two
The E. D. Va. court abused it’s authority by “assuming” a nexus
between a State action and the removal allegations under the
McDonnell Douglas framework.

A.

There is a genuine issue of material fact missing in defendant’s response @

ECF No. 9. There is no factual or credible information nor is there a nexus between
the removal allegations verses the “elements” of “Stalking in the workplace”
verses plaintiffs lawful duties. Plaintiffs claims, “if’ taken as true by the E. D.
Va., should have moved this case forward and not to dismissal.
To avoid summary judgment, the nonmoving party must demonstrate that
there is a genuine dispute of material fact so as to preclude the award of summary
judgment as a matter of law. Ricci v. DeStefano, 557 U.S. 557, 585-86 (2009);
Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574,585-86
(1986); see also Gordon v. CIGNA Corp., 890 F.3d 463,470 (4th Cir. 2018).
B.

Plaintiff presented unrefuted claims that the defendant’s response was no

more than an unlawful pretext, see PU. Roseboro response, ECF No. 11@ 1,4, 14
The Law is clear that a federal police officer and employees of the Hampton

oWa

Page 7 of 14

UOUMH M(JjJfc3cU. ZU- I I ( O

UUU. H

rufcju. u01 iu/zuzu

ry. oui 10

CASE No. 20-1173
Veterans Hospital have no authority to seek a State court’s interference in a
Federal employment relationship.
3.

Issue Three
The E. D. Va. court abused it’s authority by “Assuming” some type of
alleged conduct to defeat Plaintiffs comparators.
To establish a prima facie claim of racial discrimination under McDonnell

Douglas, the plaintiff must allege “ ‘(1) membership in a protected class; (2)
satisfactory job performance; (3) adverse employment action; and (4) different
treatment from similarly situated employees outside the protected class.’ ” Goode
v. Cent. Va. Legal Aid Soc., Inc., 807 F.3d 619,626 (4th Cir. 2015) (quoting
Coleman v. Md. Court of Appeals, 626 F.3d 187,190 (4th Cir. 2010), affd, 566
U.S. 30 (2012)); see also Haynes, 922 F.3d at 223; Rayan v. Va. Dep't of Transp.,
719 F. App'x 198, 203 (4th Cir. 2018).
The E. D. Va. court assessment of the 4th element was in error. The Word
“stalking” has elements. There is a genuine issue of material fact as to any
legitimate statements other than allegations. There is a genuine issue as to material
fact “if the evidence is such that a reasonable jury could return a verdict for the
nonmoving party.” Id.; see Variety Stores, Inc., 888 F.3d at 659; Sharif v. United
Airlines, Inc., 841 F.3d 199,2014 (4th Cir. 2016); Raynor v. Pugh, 817 F.3d 123,

£5q

Page 8 of 14

uoum Mjjjjeai; ^u-m to

uw;

h

rueu; voi iu/^u^.u

ry. » ui

jo

c3s(p(A
CASE No. 20-1173
130 (4th Cir. 2016); Libertarian Party of Va. v. Judd, 718 F.3d 308,313 (4th Cir.
2013).
Defendant’s response is hollow on Any legitimate information other than
allegations and assumption. The response was pretextual, the case should have
moved to discovery not summary judgement. Plaintiff made a prima facia case of
discrimination under McDonnel Douglas framework based on his comparators, see
Int compl. ECFNo. 3 @ \26(A)(B)(G)(H).
These persons “could have been” charged but were not. Specifically
Hendley (a white male) and Porter (a black male) where the defendant intervened
for a white male supervisor in the same position as plaintiff, under the same
supervisor, under the same administrative procedure, see ECF 3 \27, In-fact
defendant’s have not refuted their intervention in favor of Hendley. see int. compl
\26(B) and ignored state protective orders as claimed, int compl *{26(A).
4.

Issue four
The E. D. Va. court abused it’s authority when “assuming” there was no
prima facia case by ignored defendants unlawful acts.
Federal Law, DVA policy & procedure require the defendant to intervene in

any State act interfering with this sovereign government’s federal employment
relationship:
A.

38 CFR § 1.201 - Employee's duty to report.
Page 9 of 14

UOUttH MpfJfcJtfi. Z.U- i I l o

uuu;

h

meu. uo/

iu/zuzu

ry.

iuui

id

<3v'7 ^
CASE No. 20-1173
§1.201 Employee's duty to report, states;
All VA employees with knowledge or information about actual or possible
violations of criminal law related to VA programs, operations, facilities,
contracts, or information technology systems shall immediately report such
knowledge or information to their supervisor, any management official, or
directly to the Office of Inspector General.
(Authority: 5 U.S.C. App. 3,38 U.S.C. 902) [68 FR 17550, Apr. 10,2003]
Id 38 CFR §1.201
B.

38 CFR § 1.203 - Information to be reported to VA Police.
§ 1.203 Information to be reported to VA Police, states:
Information about actual or possible violations of criminal laws related to
VA programs, operations, facilities, or involving VA employees, where the
violation of criminal law occurs on VA premises, will be reported by VA
management officials to the VA police component with responsibility for the
VA station or facility in question. If there is no VA police component with
jurisdiction over the offense, the information will be reported to Federal,
state or local law enforcement officials, as appropriate.
(Authority: 38 U.S.C. 902) [68 FR 17550, Apr. 10,2003]
Id 38 CFR §1.203

C.

38 CFR § 1.205 - Notification to the Attorney General or United States
Attorney's Office.
§ 1.205 Notification to the Attorney General or United States Attorney's
Office, States:
VA police and/or the OIG, whichever has primary responsibility within VA
for investigation of the offense in question, will be responsible for notifying
the appropriate United States Attorney's Office, pursuant to 28 U.S.C. 535.
(Authority: 5 U.S.C. App. 3, 38 U.S.C. 902) [68 FR 17550, Apr. 10, 2003]
Page 10 of 14

uoom Mppwai. <lkj- i

mo

UUU. **

nieu. u01 iu/z,uzu

ry. i i ui id

CASE No. 20-1173
Id 38 CFR §1.205
D.

38 CFR § 14.560 - Procedure where violation of penal statutes is involved
including those offenses coming within the purview of the Assimilative
Crime Act (18 U.S.C. 13).
§ 14.560 states:
The Department of Justice, or the U.S. Attorneys, are charged with the duty
and responsibility of interpreting and enforcing criminal statutes, and the
final determination as to whether the evidence in any case is sufficient to
warrent prosecution is a matter solely for their determination. If the
Department of Justice or U.S. Attorney decides to initiate action, the
Regional Counsel will cooperate as may be requested. The Regional Counsel
will promptly bring to the attention of the General Counsel any case wherein
he or she is of the opinion that criminal or civil action should be initiated
notwithstanding a decision by the U.S. Attorney not to bring such action;
any case where action has been inordinately delayed; and any case which
would cause significant publicity or notoriety.
(Authority: 38 U.S.C. 501)
[50 FR 24767, June 13,1985, as amended at 68 FR 17551, Apr. 10,2003]
Id. 38 CFR §14.560
There is a genuine issue of material fact as to why a State court was used

against plaintiff, when there is a legal procedure used for ALL federal employees.
The defendants have no legal, legitimate, or nondiscriminatory reason. “A.P.’s”
race and sex was the “only” reason for defendant to go outside federal law. If a
plaintiff establishes a prima facie case of unlawful discrimination, “a presumption
of illegal discrimination arises, and the burden of production shifts to the
employer” to produce evidence of a legitimate, non-discriminatory reason for its
Page ll of 14

UO 1/ttH MpjJfcJdK ziu- I I ( o

UUU. H

rnwj^uo/ iu/zu^u

ry. i^ui

CASE No. 20-1173
adverse employment action. Hoyle v. Freightliner, LLC, 650 F.3d 321, 336 (4th
Cir. 20//,); see Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 142
(2000); Haynes, 922 F.3dat 223.
The Defendant Never met this burden, (emphasis) The E.D. Va. court
abused it’s authority by going outside the framework of McDonnel Douglas and
condoning the use of an unlawful act.
5.

Issue Five
The E. D. Va. court abused it’s authority when “assuming” a sovereign
federal government does not create a Hostile Environment by using
State court criminal processes against their employees. This is related to
issue No. four.
The defendant(“the DVA”) is a sovereign federal government agency. In

Plaintiffs initial complaint, ECF No.3 @ 1)1(37-46 and 1)1)49-50 was clear that
deciding and proposing officials knew the unlawful act of using a State court
criminal process was taking place at this facility. As related to issue No. four
above, the defendant knew they have a legal obligation to intervene in these
unlawful acts. To allow these type acts to take place and discriminate on which
person(s) they choose to intervene, and/or ignore State interference for other
employees is a Very hostile environment. See Init comp ECF No. 3 @ 1)1)37-46
<mdW9-50

Page 12 of 14

uoumh

MppetJi. zu- 11/0

UUU. H

rneu. uo/ iu/zuzu

ry. 10 ui 10

3 OCK

CASE No. 20-1173
6.

RELIEF REQUESTED
Plaintiff-Appellant asks this Appellate Court to: (i) REVERSE the

Dismissal Order of the E. D. Va. Court; (ii) RETURN this case to the E. D. Va.
with instruction to allow the defendant reasonable time to state (a) a lawful,
nondiscriminatory reason for termination, (b) a legal explanation why the use of a
State court process is authorized for the DVA.
7.

Plaintiff-Appellant has filed the following appeals in this court:

A.

19-1020 (4:17-CV-134) Affirmed

B.

20-1147 (4:19-CV-59) Pending

8.

there are no transcripts in need of filing

si

Lawrence Mattison; Plaintiff-Appellant
948 Copper Stone Circle
Chesapeake, Virginia 23320
(757) 604-7894
La7matt@vahoo.com

CERTIFICATE OF SERVICE
I, pro se Plaintiff-Appellant; Lawrence E. Mattison do by sign state that
copies of this Informal Brief was sent by US. Postal Mail to counsel for each
defendant as follows:
Counsel for defendant

Defendant

Sean D. Jansen; Assistant U.S,

Robert Wilkie;

30a

Page 13 of 14

UOOMH MjjptJdl, Z.KJ- I I/O

uuu; «*

mtfu. uo/ iu/^u^u

ry. ih ui ia

CASE No. 20-1173
Attorney, Office of the United States
Attorney @ 101 West Main Street,
#8000, Norfolk, Virginia 23510-1671
Sean .i ansen @usdo i. gov

Secretary department of Veterans
Affairs

and one copy w/ return copy was sent to U.S. Court of Appeals, Fourth Circuit @
U.S. Courthouse Annex, 5th Floor, 1100 East Main Street, Richmond, Virginia
23219, this was done on the

day of

,2020

signed

*T]f)

Lawrence E. Mattison
948 Copper stone circle
Chesapeake, Virginia 23320
(757) 604-7894
La7 matt®,vahoo .com

3 la

Page 14 of 14

